      Department of Homeland Security





        TSA Management and Oversight at Honolulu 

                   International Airport 





OIG-12-128                                   September 2012

                       OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security
                             Washington, DC 20528 / www.oig.dhs.gov


                                      SEP 27 2012

MEMORANDUM FOR:	            John W. Halinski
                            Deputy Administrator
                            Transportation Security Administration

FROM:	                      Anne L. Richards
                            Assistant Inspector General for Audits

SUBJECT:	                   TSA Management and Oversight at Honolulu International
                            Airport

Attached for your action is our final report, TSA Management and Oversight at Honolulu
International Airport. We incorporated the formal comments from the Transportation
Security Administration in the final report.

The report contains four recommendations aimed at improving airport screening
operations. Your office concurred with all recommendations. Based on information in
your response to the draft report, we consider recommendations 2 and 3 resolved and
open. Once your office has fully implemented the recommendations, please submit a
formal closeout letter to us within 30 days so that we may close the recommendations.
The memorandum should be accompanied by evidence of completion of agreed-upon
corrective actions and of the disposition of any monetary amounts.

Recommendations 1 and 4 remain unresolved and open. As prescribed by the
Department of Homeland Security Directive 077-1, Follow-Up and Resolutions for the
Office of Inspector General Report Recommendations, within 90 days of the date of this
memorandum, please provide our office with a written response that includes your
(1) agreement or disagreement, (2) corrective action plan, and (3) target completion
date for each recommendation. Also, please include responsible parties and any other
supporting documentation necessary to inform us about the current status of the
recommendation. Until your response is received and evaluated, the recommendations
will be considered open and unresolved.

Consistent with our responsibility under the Inspector General Act, we are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post a
redacted version of the report on our website.
                       OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


Please call me with any questions, or your staff may contact Mark Bell, Deputy Assistant
Inspector General for Audits, at (202) 254-4100.

Attachment
                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security


Table of Contents
Executive Summary ...................................................................................................... 1


Background ................................................................................................................. 2


Results of Audit ............................................................................................................ 5


          Effects of Changes to Screening Procedures Not Fully Evaluated ........................ 5


          More Direct Supervision of Screening Operations, Better Supervisory Guidance,

          and Training Needed ......................................................................................... 8


          Inadequate Staffing and Need for Equipment at Affected Location................... 11


          Recommendations ......................................................................................... 15


          Management Comments and OIG Analysis ...................................................... 16


Appendixes
          Appendix A:          Objectives, Scope, and Methodology......................................... 20

          Appendix B:          Management Comments to the Draft Report ............................ 23

          Appendix C:          Representatives Mica and Chaffetz Request Letter .................... 29

          Appendix D:          Review of Training .................................................................... 31

          Appendix E:          Review of Performance Indicators and Disciplinary Actions........ 33

          Appendix F:          Staff Involved in Security Failure ............................................... 40

          Appendix G:          HNL Airport Configuration......................................................... 41

          Appendix H:          Types of Checked Baggage Screening Searches.......................... 42

          Appendix I:          Major Contributors to This Report............................................. 43

          Appendix J:          Report Distribution ................................................................... 44





 www.oig.dhs.gov                                                                                               OIG-12-128
                     OFFICE OF INSPECTOR GENERAL
                        Department of Homeland Security


Abbreviations
      DHS         Department of Homeland Security
      EDS         Explosive Detection System
      ETD         Explosive Trace Detection
      FSD         Federal Security Director
      FY          fiscal year
      HNL         Honolulu International Airport
      OIG         Office of Inspector General
      SOP         standard operating procedure
      TSA         Transportation Security Administration
      TSO         Transportation Security Officer
      TSM         Transportation Security Manager




www.oig.dhs.gov                                            OIG-12-128
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


Executive Summary
Representatives John Mica and Jason Chaffetz requested a review to determine why a
portion of the Transportation Security Administration’s (TSA) screener workforce at
Honolulu International Airport did not perform critical transportation security screening
of baggage. The request came after TSA investigated allegations of improper screening
of checked baggage at the airport and took disciplinary and administrative actions. The
objective of our audit was to determine whether TSA ensured that Transportation
Security Officers complied with baggage screening procedures at Honolulu International
Airport.

Although ignoring security procedures is never justified, Transportation Security Officers
at one location in Honolulu International Airport did not screen all checked baggage as
required during the last few months of 2010. The responsibility for screening the
baggage belongs to the individual Transportation Security Officers, but this situation
might not have occurred if TSA —

       Developed changes in screening procedures comprehensively and then
       thoroughly evaluated the effects of such changes;
       Supervisors provided better oversight of Transportation Security Officers and
       baggage screening operations; and
       Provided screening operations at the affected location with adequate staff and
       screening equipment in a timely manner.

Without ensuring that baggage is screened as appropriate, TSA risks the safety of the
traveling public by allowing unscreened baggage on passenger aircraft.

We made four recommendations to TSA that, when implemented, should assist the
agency with developing and managing changes to security procedures. The
recommendations should also help TSA provide more effective oversight of airport
screening operations. TSA concurred with the four recommendations.




www.oig.dhs.gov                                1                               OIG-12-128
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


Background
TSA protects the Nation’s transportation systems to ensure freedom of movement for
people and commerce. TSA reports that its vision is to set the standard for excellence in
transportation security through its people, processes, and technology.

As part of TSA’s mission, all individuals, accessible property, and checked baggage must
be screened using the screening methods contained in TSA’s standard operating
procedures (SOPs). TSA’s Checked Baggage Screening Standard Operating Procedures
describe uniform procedures and standards for screening baggage to deter, detect, and
prevent the carriage of any prohibited items, such as explosives, incendiaries, or
weapons, onboard aircraft. TSA periodically modifies its SOPs to adjust to the current
threat environment, the addition of new equipment, or passenger concerns.

TSA primarily uses the Explosive Detection System (EDS) or Explosive Trace Detection
(ETD) to screen checked baggage.

       EDS screening of checked baggage requires Transportation Security Officers
       (TSOs) to place checked baggage in a machine to screen it by x ray for prohibited
       items. EDS screening of checked baggage is mandatory at locations where the
       equipment is available.

       ETD screening of checked baggage relies on manual procedures combined with
       technology to identify small amounts of explosives. ETD screening requires TSOs
       to
                                                              TSOs swab baggage and
       place the swab in a unit that uses ETD technology to analyze the content for

       potential explosive residue.

Prior to January 2010, TSA’s SOP for using ETD required that            of checked bags
receive                      (testing the
                                                                          (40/40/20
protocol). TSA explained that although the 40/40/20 protocol was initially effective and
efficient for random and unpredictable screening, the changing threat environment
warranted new procedures. Appendix H contains a detailed description of TSA’s
checked baggage screening searches.




www.oig.dhs.gov                               2                               OIG-12-128
                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security



TSA’s Office of Security Operations explored options to replace the 40/40/20 protocol
with a procedure that improved the probability of detection while maintaining an
acceptable level of efficiency using TSA staffing allocation standards. TSA decided to
                                and use a new ETD method that required a
                                                           1
                                                             Selectee bags would continue
to be screened using                 procedures.

Beginning in January 2010, TSA required TSOs to       Mitigation Procedures allow for
                                of checked bags       screening of bags by:
                     when using the ETD screening
methodology at all airports, including Honolulu
International Airport (HNL). The new SOP allowed
use, at times, of alternate screening procedures
(mitigation procedures). Mitigation procedures                  baggage that is swabbing four
                                                      checked bags at a time taking
enable staff to use alternate procedures for timely                          of each bag.
screening during specific, short-term, special        There may only be a total of
                                                      before the sample is analy ed.
circumstances, such as unexpected increases in
the volume of checked baggage. Authority was
                                                      Using certified canine teams.
delegated to the Federal Security Director (FSD) at
                                                                                      Source: TSA
an airport to implement such procedures for 15­
minute increments to decrease the security risks associated with excess baggage.

In December 2010, a confidential source notified TSA officials and provided video
evidence showing some TSOs failing to follow required screening procedures at the
Overseas Terminal (Lobby 4) screening location at HNL. Although some employees
adhered to the agency’s screening procedures, others circumvented these procedures
and cleared bags for transport without the required screening.

Among other things, the evidence showed TSOs                              A notice of inspection is a
opening bags, placing notices of inspection inside,                       document TSOs place inside
                                                                          checked baggage indicating the
and transporting them back to the airline without                         baggage has been opened for
screening them. The videos also showed TSOs                               inspection by TSA.
                                                                                                       Source: TSA
marking baggage as “cleared” before screening,




1
                    is a special requirement for individuals selected by a computer-assisted passenger screening
system or another process as determined and approved by TSA.



    www.oig.dhs.gov                                       3                                           OIG-12-128
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security

         a cart loaded with baggage, and screening baggage by swabbing only the


In response to the allegations of screening violations, TSA’s Office of Inspection
performed an investigation between December 31, 2010, and March 23, 2011. The
investigation team interviewed 191 employees and reviewed documentation and video
evidence. Although one TSO admitted to circumventing screening procedures as early
as January 2010, the investigation focused only on the period between September and
December 2010. TSA took personnel actions against employees who did not properly
screen checked baggage during the last few months of 2010 in the Overseas Terminal
(Lobby 4).

In June 2011, Representative John Mica and Representative Jason Chaffetz requested a
review to determine why a portion of TSA’s screener workforce at HNL failed to perform
critical transportation security screening. The Representatives requested that the Office
of Inspector General (OIG) provide “a complete         TSA's National Deployment
analysis of the failure of TSA’s oversight and         Force deploys Transportation
                                                       Security Officers to support airport
supervision of screening operations, protocols,        screening operations during
and procedures,” including corrective and              emergencies seasonal demands
disciplinary actions. They also requested that we      or other circumstances requiring
                                                       more staffing resources than are
review performance evaluations, guidance,              regularly available.
training requirements, and use of the National
                                  Source: TSA

Deployment Force. The Representatives’ letter is

in appendix C; additional information responding to their questions is in appendixes D,

E, and F.





 www.oig.dhs.gov                             4                                  OIG-12-128
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


Results of Audit
Although ignoring security procedures is never justified, TSOs at one location in HNL did
not screen all checked baggage as required during the last few months of 2010. The
responsibility for screening the baggage belongs to the individual TSOs, but this
situation might not have occurred if TSA —

       Developed changes in screening procedures comprehensively and thoroughly

       evaluated the effects of such changes; 

       Supervisors provided better oversight of TSOs and baggage screening operations;

       and

       Provided screening operations at the affected location with adequate staff and 

       screening equipment in a timely manner.


Without ensuring that baggage is screened as appropriate, TSA risks the safety of the
traveling public by allowing unscreened baggage on passenger aircraft.

       Effects of Changes to Screening Procedures Not Fully Evaluated

       TSA’s fragmented process of developing changes to screening procedures and
       not fully evaluating the effects of new procedures may have contributed to the
       screening violations at HNL.

       Developing Changes to Screening Procedures and Evaluating Effects

       TSA had a fragmented and inconsistent process for developing and evaluating
       changes to its SOP for baggage screening. TSA relied on different numbers and
       locations of airports when studying proposed changes to the SOP. TSA had
       difficulty providing a comprehensive document or centralized point of contact to
       explain the studies and analysis to support decisions driving this and other
       changes to SOPs. Nor did TSA have a comprehensive document that showed
       whether the procedural changes would have an adverse effect on unique
       airports, such as HNL, which has a high volume of checked baggage and densely
       packed boxes that require screening.




 www.oig.dhs.gov                            �                                 OIG-12-128
                              OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security




      Between 2007 and 2010, TSA headquarters conducted four pilot studies on the
      effects of various ETD protocols on checked baggage screening. However, these
      studies did not contain sufficient data and analysis to guide procedural changes
      nationwide. As shown in table 1, TSA was not consistent with the airports
      tested. According to TSA officials, the inconsistencies were due to changes in the
      equipment on hand and other factors.


                             Table 1: Airports Evaluated in Pilot Studies*

                  No.        Category            2007         2008          2009             2010
                   1             X                 √
                   2             X                 √
                   3              I                             √             √
                   4              I                 √           √             √
                   5              I                 √           √             √                √
                   6             II                 √
                   7             II                             √             √
                   8             II                                                            √
                   9             II                 √           √             √
                  10             II                             √
                  11            III                             √
                  12            III                 √
                  13            III                             √
                  14            III                 √
                  15            III                             √
                  16            III                             √
                  17            IV                  √
                  18            IV                                                             √
                  19            IV                  √
                  20            IV                              √
                  21            IV                                                             √
                  22            IV                              √
                  23            IV                              √

            Source: OIG based on TSA information.
            *TSA classifies the Nation’s airports into one of five categories (X, I, II, III, and IV)
            based on various factors such as the number of annual takeoffs and landings. In
            general, Category X airports have the largest number of passengers boarding
            aircraft and Category IV airports have the smallest number.




www.oig.dhs.gov                                         6                                               OIG-12-128
                        OFFICE OF INSPECTOR GENERAL
                           Department of Homeland Security

      Between 2007 and 2010, TSA conducted four pilot studies of ETD protocols:

         �	 In a 2007 study, TSA reviewed 10 Category X through IV airports using
            four different screening ETD protocols. The results showed that the
            average search time to screen              of checked baggage
                      was 320 seconds per bag; using the 40/40/20 protocol took an
            average of 161 seconds per bag.

         �   In a 2008 study of 13 Category I through IV airports, data was collected
             on ETD screening with


             The results showed that Category I             ETD Protocols Studied
             airports had problems screening the
                                                        1
             checked baggage in a timely manner.
             The report recommended providing
             EDS machines to two airports with          2
             high numbers of passengers to relieve
             them of ETD screening.                     3

                                                        4
         �	 In a 2009 study, TSA tested an                                Source: TSA
            additional five Category I and II
            airports. The report concluded that implementing ETD using the
            protocol increased screening time over using the 40/40/20 protocol.
            However, when implementing the             protocol in January 2010, TSA
            could not demonstrate how it used this information.

         �   In a 2010 study conducted in April and May after implementing the
                      protocol, TSA tested it at four Category I, II, and IV airports.
             Although results were limited, they showed that those airports were
             meeting the average screening time and recommended ending additional
             data collection. TSA did not test a Category X airport during this study.

      At the time of the change to the Checked Baggage Screening SOPs in January
      2010, HNL and                                     were the only Category X
      airports with locations using                             on checked




www.oig.dhs.gov                           7	                                OIG-12-128 

                        OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security

      baggage. TSA did not test these airports in any of the four pilot studies.
      Therefore, TSA did not know the effects of changes to the SOPs on its largest
      airports.

      Although none of the pilot reports thoroughly explained TSA’s methodology for
      selecting airports for the studies, TSA indicated that it focused on airports that
      relied heavily on ETD-only screening. Additionally, although TSA officials
      explained that they tried to be consistent in their choices of airports, only 1 of
      the 23 airports was tested in all four pilot studies, as shown in table 1. Our
      statistician reviewed the study information provided by TSA and concluded that
      TSA documentation did not address a specific methodology that TSA used to
      select airports for pilot testing.

      More Direct Supervision of Screening Operations, Better Supervisory Guidance,
      and Training Needed

      The TSOs’ decision not to follow screening procedures could have been due in
      part to limited direct supervision. Also, clearer guidance on direct observation of
      screening operations and better training of supervisors might have addressed
      this situation.

      Direct Supervision

      Screening procedures were circumvented, in part, because of Supervisory TSOs’
      limited direct supervision of employees at HNL. TSA management at HNL did not
      ensure that screening managers and supervisors were regularly present,
      observing operations, and performing all responsibilities required by TSA
      management directives and SOPs.

      Although the level of supervision of checked baggage screening operations is not
      recorded or measured, our video review, TSA’s investigation report, and
      employee interviews showed TSA management provided varying levels of
      supervision. Some TSOs believed management and direct oversight was
      sufficient, but the majority stated that management, including Lead TSOs and
      Supervisory TSOs, provided occasional, little, or no direct supervision. For
      example:




www.oig.dhs.gov                            8                                 OIG-12-128
                        OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security



             One Transportation Security Manager (TSM) said that he observed the
             Lead TSO, Supervisory TSO, and another manager spending too much
             time in the office and not managing staff at the baggage screening
             locations.
             One Supervisory TSO said that TSMs were not involved at all at baggage
             screening locations.
             One Supervisory TSO confirmed that there was no local policy for direct
             supervision. The Supervisory TSO would have liked more direct contact
             with the TSMs and did not believe managers spent enough time at
             screening locations.

      Supervisory Guidance

      TSA has directives and procedures on management and oversight
      responsibilities, but they do not include clear guidance on direct supervision of
      screening operations, and thus allow different interpretations and
      implementation. TSA’s directives and procedures include its Screening
      Management SOP and the Performance Accountability and Standards System
      Management Directive No. 1100.43-1 and User Guidance.

      TSA’s Screening Management SOP includes staffing guidelines, duties, and
      responsibilities to ensure that checked baggage screening meets statutory
      requirements. According to this SOP, the Supervisory TSO is responsible for
      implementing security screening standards at all screening locations. The SOP
      further explains that a Supervisory TSO must be present at each screening
      location open for operation or designate a Lead TSO to act on his or her behalf.

      The SOP identifies more than 40 Supervisory TSO tasks to ensure that each
      screening location is operating properly. These tasks include the following:

             Monitoring TSO and Lead TSO performance; 

             Maintaining the proper staffing level at each screening location;

             Ensuring that TSOs are knowledgeable about all SOPs; 





www.oig.dhs.gov                            9                                 OIG-12-128
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


              Correcting improper screening or behavior; and

              Ensuring that Notice of Inspection cards are properly used and controlled.


      Although the SOP includes Supervisory TSO responsibilities and requirements for
      completing duties, it does not include specific metrics, leaving the
      responsibilities and requirements open to interpretation. For example, the SOP
      requires Supervisory TSOs or designated Lead TSOs to monitor TSO performance,
      monitor all screening activities, and ensure compliance with all applicable SOPs.
      The SOP also requires them to correct improper or faulty application of
      screening procedures to ensure effective, vigilant, and courteous screening.
      However, rather than include more specific details on oversight requirements,
      the SOP focuses on screening equipment operation, safety concerns, and
      opening and closing of screening locations.

      The Performance Accountability and Standards System TSA Management
      Directive No. 1100.43-1 and User Guidance includes criteria for evaluating TSOs’
      and Lead TSOs’ technical proficiency, competencies, readiness for duty, training
      and development, and collateral duties. However, it does not contain means of
      measuring or evaluating the quality or quantity of direct supervision. For
      Supervisory TSOs and Screening Managers, this directive has similar criteria and
      provides criteria for supervisory accountability factors. Specifically, it includes a
      team-based measure that holds Supervisory TSOs and TSMs accountable for
      their direct reports in “Readiness for Duty” and “Training and Development.”

      Supervisory Training

      TSA provides Supervisory TSOs with training courses focused on general
      supervisory skills, but does not provide sufficient training on the quality and
      quantity of observation and supervision; or how often managers, Supervisory
      TSOs, and Lead TSOs should be physically present to observe screening
      operations. We attribute this training deficiency to the need for supervisory
      requirements in TSA’s oversight-related guidance.

      The Supervisor Technical Training course provides Supervisory TSOs and Lead
      TSOs with general supervisory skills to manage checkpoints and checked baggage
      screening locations. The training course discusses key topics such as Supervisory
      TSO job functions, communication, situational awareness, and managing
      screening operations. For example, the definition of situational awareness



www.oig.dhs.gov                            1�                                   OIG-12-128
                        OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security

      includes understanding current conditions, recognizing potential hazards,
      planning, decision-making, understanding consequences of loss, and being
      proactive. The course provides information on managing multiple security
      incidents at checkpoints and checked baggage screening locations, but does not
      thoroughly address balancing Supervisory TSO administrative functions with
      direct observation.

      Before TSA required Supervisory TSOs to take the Supervisor Technical Training
      course, it required them to take COACH! Training. This training helped
      Supervisory TSOs build on existing leadership skills with tools for checkpoint and
      checked baggage locations, but it did not directly address oversight and
      observation. TSA also offers TSMs a course—Leading People and Managing
      Operations—to provide general supervisory skills to manage responsibilities and
      challenges at checkpoints and checked baggage screening locations.

      Although these three courses discuss key topics such as working with
      stakeholders, communication, and screening operations, TSA training could give
      more guidance to Supervisory TSOs and managers on how best to provide
      leadership presence at screening locations to ensure that TSOs are complying
      with screening procedures.

      Inadequate Staffing and Need for Equipment at Affected Location

      TSA management at headquarters and HNL did not provide the staffing and
      more efficient equipment needed for screening operations at the affected
      location. Data was available for analysis, but TSA management at headquarters
      used a limited selection of information to predict and prepare for staffing
      demands. Furthermore, TSA management at HNL did not allocate staff
      appropriately to handle the volume of checked baggage that needed screening.
      Although requested, TSA headquarters did not provide the affected screening
      location with more efficient equipment to screen checked baggage, causing local
      TSA management to implement temporary solutions and mitigation procedures.




www.oig.dhs.gov                           11                                 OIG-12-128
                        OFFICE OF INSPECTOR GENERAL
                           Department of Homeland Security

      Use of Data for Allocating Staff

      TSA headquarters was aware that airports with high annual numbers of
      passengers boarding aircraft had difficulty screening checked baggage in a timely
      manner using ETD screening protocols. Yet TSA did not optimize its use of the
      available information and data to predict and prepare for staffing demands.
      TSA’s pilot testing of new ETD protocols did not include significant testing of
      Category X airports, which have the largest number of passengers boarding
      aircraft.

      TSA’s Office of Security Operations conducted a 2008 pilot study of 13 airports,
      which included testing of three Category I airports, using an ETD protocol of
                                             and
      Following the study, TSA issued a memo proposing that Category I airports revert
      to the 40/40/20 protocol “in an effort to maintain operational flow and meet
      departure schedules.”

      At Category I airports, between 1.25 million and 5 million passengers board
      aircraft annually, whereas at Category X airports such as HNL, which were not
      tested in the study, more than 5 million passengers board annually. Because TSA
      did not test its         ETD protocol at Category X airports, it did not know
      whether these larger airports had difficulties screening checked baggage using
      the proposed new ETD screening protocol.

      According to TSA management at HNL,
                                               Exhibit 1: Balikbayan Boxes
      some passengers who travel to Asian
      nations check very large boxes, called
      Balikbayan boxes (see exhibit 1).
      Measuring 18"x 18"x 24", these
      densely packed boxes are much larger
      than the 8"x 12"x 20" bag TSA used to
      estimate the length of time needed to
      screen using ETD. There was no study     Source: OIG
      to evaluate the effect of these boxes
      under the changed SOPs.




www.oig.dhs.gov                          12                                  OIG-12-128
                        OFFICE OF INSPECTOR GENERAL
                           Department of Homeland Security

      Local TSA management explained that they frequently shifted staff from other
      checked baggage screening locations to assist the affected screening location
      during peak times. On daily reports, screening managers documented staffing
      levels by specific screening location, but we could not determine how TSA used
      these reports to address the staffing problem, such as finding trends in the
      number or frequency of TSOs moved. Without tracking these staffing decisions,
      TSA management at HNL could not predict when such staffing would be needed
      in the short term or provide TSA headquarters with useful information for future
      staffing decisions.

      Mitigation Procedures

      TSA allowed airports to use mitigation procedures when using ETD screening
      under the new           protocol. According to TSA, the FSD at an airport may
      implement mitigation for 15-minute increments to decrease the security risks
      associated with excess baggage. The decision to implement mitigation
      procedures places direct responsibility on the FSD for deviating from standard
      checked baggage screening protocols. This option recognizes that timely
      screening cannot be conducted at all times, and it may create a
      misunderstanding among TSOs on the acceptability of applying alternate
      screening practices.

      The affected screening location at HNL documented using mitigation procedures
      30 times from January 13 through February 11, 2010. We did not find
      documentation that mitigation procedures were used after February 11, 2010;
      however, we noted that HNL screened an increasing volume of checked baggage
      with the same staffing allocation at the affected screening location. HNL
      management implemented additional actions, such as adding ETD machines or
      transporting baggage to other screening locations with EDS equipment, but
      these options were burdensome to TSOs.

      To expedite the screening process for unexpected high-volume baggage needing
      to be screened, TSA allows airports to use various levels of screening and to
      intermittently use mitigation procedures under specific circumstances. Although
      bypassing security measures is never justified, these practices may have led




www.oig.dhs.gov                          13                                 OIG-12-128
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

          some TSOs to believe that                                               was not
          always possible, and that it was acceptable to not always perform such searches.

          Equipment

          TSA headquarters did not provide HNL with the requested EDS screening
          equipment in a timely manner. HNL requested an EDS machine for the screening
          area in August 2008 because of safety concerns at the affected location. The
          request noted that safety is the over arching concern related to this request.
          More specifically, the check-in area of Lobby 4 is very congested because many
          of the flights are scheduled around the same time, causing the baggage to
          accumulate in a confined area. This causes a safety issue for the passengers as
          well as the Officers.

          TSA headquarters confirmed receipt of HNL’s request and added it to an
          unfunded requirements list. However, a prior OIG audit showed that new and
          used equipment was stored in a warehouse awaiting delivery to airports for
          more than 1 year at the time HNL was requesting the EDS equipment.2

          In 2009, TSA headquarters informed HNL that the equipment would arrive in
          June 2010, 18 months after it was requested. TSA officials later explained that
          there were delays with the system integration contractor, pushing estimated
          delivery and installation to December 2010. The equipment arrived in December
          2010, as the TSA Office of Inspection investigation began.

          Without the more efficient EDS equipment, TSA management at HNL
          implemented labor-intensive interim options to ensure that all baggage was
          screened. For example, HNL established a pod of four additional ETD screening
          stations in the affected screening location. Local TSA management also
          instructed TSOs to transport baggage to another area approximately 500 feet
          away for EDS screening, which TSOs explained was physically demanding. TSOs
          had to load carts, navigate through crowds of passengers, unload and screen the




2
 DHS OIG Audit Report, Management of the Transportation Security Administration's Logistics Center,
OIG-10-14, November 2009.

    www.oig.dhs.gov                               14                                      OIG-12-128
                        OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security

      baggage, and then return the loaded carts to the original area. See appendix G
      for a diagram of this location.


      Conclusion

      TSA does not know the extent to which baggage was not screened during 2010
      at HNL, placing the safety of the traveling public at risk by allowing unscreened
      baggage on passenger aircraft. There is no acceptable justification for TSOs to
      bypass their security mission; however, TSA allowed various levels of screening
      and intervals of mitigation that TSOs could easily misinterpret as meaning that
                   screening was not always possible or needed.

      To ensure compliance with its SOPs, TSA should fully evaluate the effects of
      changes to them. TSMs and Supervisory TSOs need to provide sufficient direct
      oversight to ensure that all baggage is screened according to approved
      procedures. Finally, TSA needs to ensure that airports have the appropriate
      staffing and equipment to conduct screening in accordance with SOPs.

      Recommendations

      We recommend that the Transportation Security Administration Deputy
      Administrator:

      Recommendation #1:

      Create and document protocols to ensure that sufficient information is gathered
      and used for thorough analysis when deciding to modify standard operating
      procedures. These protocols should be well documented and ensure
      comprehensive, transparent, and logical approaches with detailed support, while
      allowing for flexibility to address urgent threats.

      Recommendation #2:

      Revise the position descriptions to clarify the roles and responsibilities for
      checked baggage supervisors and managers and define the expectations for




www.oig.dhs.gov                           1�                                  OIG-12-128
                        OFFICE OF INSPECTOR GENERAL
                           Department of Homeland Security

      direct supervision. This should ensure that assigned staff are performing
      screening duties in accordance with all standard operating procedures.

      Recommendation #3:

      Ensure that supervisors and managers are trained on their responsibility and
      accountability to ensure that all screening operations are performed as required.

      Recommendation #4:

      Develop and implement performance metrics to evaluate the supervision of
      checked baggage areas as part of supervisory performance plans and
      evaluations. These metrics should include frequent direct observation of
      baggage screening activities.


      Management Comments and OIG Analysis

      TSA provided comments to the draft of this report. A copy of the response in its
      entirety is included in appendix B. TSA also provided technical comments and
      suggested revisions to sections of the report. When appropriate, we made
      changes to reflect the suggested revisions.

      According to its response to the draft report, TSA agreed with our
      recommendations to improve the agency’s management and oversight of its
      security screening operations. TSA had concerns with the report’s conclusion
      and evidence that the screening violations at HNL Lobby 4 might not have
      occurred if TSA developed changes to its screening procedures more
      comprehensively and fully evaluated the effects of such changes. TSA further
      asserted that perceived shortcomings in the process of evaluating changes to
      checked baggage screening procedures did not cause TSOs to decide to
      circumvent those procedures.

      Our report recognizes that ignoring security procedures is never justified, and
      individual TSOs are responsible for screening baggage. However, we maintain
      that a more comprehensive approach to revising screening procedures may have
      helped TSA reduce the need for and use of mitigation procedures and would
      have ensured that all affected airports were considered.




www.oig.dhs.gov                          16                                 OIG-12-128
                        OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security

      We reviewed the documentation that TSA provided demonstrating the agency’s
      data collection effort. Although this effort lasted for several years, TSA only
      tested the proposed ETD screening procedures in two Category X airports in one
      2007 study, and HNL was not one of those two airports. Additionally, TSA did
      not re evaluate any additional Category X airports in subsequent pilot studies of
      this change to the SOPs. Without such data, the agency cannot be certain
      whether the manner in which the SOPs were developed was related to the HNL
      officers’ failure to follow the SOPs. Further, we maintain that allowing the use of
      mitigation procedures demonstrates that TSA recognized changes to the SOPs
      might be a problem for some airports.

      TSA also asserted that we did not provide evidence to support our conclusion
      that mitigation procedures affected baggage screening, and that we ignored
      credible evidence in TSA’s investigation. We reviewed both TSA’s Report of
      Investigation and video evidence, and we agree that TSOs did not conduct the
      required screening. TSA’s Report of Investigation, as well as our interviews,
      showed that TSOs revealed the violations began after January 2010, when the
      SOPs changed, not prior to the revisions. TSOs at HNL knew that mitigation
      procedures were used frequently once the              protocol was initially
      implemented, and they had to screen an increasing amount of checked baggage
      at the affected location. For these reasons, officers could have inferred that TSA
      airport management considered mitigation acceptable.

      In its response, TSA further noted that HNL was the only location at which
      procedures were not followed. However, the agency did not provide evidence to
      support this assertion, nor did it demonstrate it reviewed all airports. In fact,
      had the confidential source not provided evidence to TSA, the agency might have
      remained unaware of the violations at HNL.

      Finally, TSA is responsible for knowing the extent to which baggage is not
      screened and ensuring the safety of the traveling public.

      TSA Response to Recommendation #1: TSA concurred with the recommendation.
      The agency agreed it should improve its process to develop, evaluate, and




www.oig.dhs.gov                           17                                 OIG-12-128 

                        OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security

      document changes to its screening procedures. TSA anticipates implementing
      the new process by June 30, 2013.

      OIG Analysis: This recommendation will remain open and unresolved until TSA
      provides a more detailed corrective action plan and a copy of the approved
      process.

      TSA Response to Recommendation #2: TSA concurred with the
      recommendation and has taken steps to implement corrective action. TSA
      conducted a job analysis study and reviewed job duties, responsibilities, and
      competencies for Supervisory TSOs, Lead TSOs, and TSOs. TSA plans to use the
      results of the study to update position descriptions. TSA expects the revised
      position descriptions to be completed by December 31, 2012.

      OIG Analysis: This recommendation is resolved, but will remain open until TSA
      provides the results of the job analysis study and the revised position
      descriptions.

      TSA Response to Recommendation #3: TSA concurred with the
      recommendation and has begun to implement the recommendation. In July
      2012, TSA launched a 2-week training course titled, “Essentials of Supervising
      Screening Operations.” The course provides Supervisory TSOs with both
      technical and leadership training to address integrity, responsibility, and TSA’s
      mission and vision. TSA expects that the agency’s 4,400 Supervisory TSOs will
      complete the training by February 2014. Additionally, TSA plans to expand its
      training portfolio for managers, Supervisory TSOs, Lead TSOs, and other levels of
      field leadership.

      OIG Analysis: This recommendation is resolved, but will remain open until TSA
      provides the curriculum for the “Essentials of Supervising Screening Operations”
      and evidence that its Supervisory TSOs have completed the training.

      TSA Response to Recommendation #4: TSA concurred with the
      recommendation and has begun to implement the recommendation. TSA
      chartered an Integrated Project Team to identify specific metrics that will allow




www.oig.dhs.gov                           18                                 OIG-12-128
                       OFFICE OF INSPECTOR GENERAL
                          Department of Homeland Security

      TSA managers nationwide to more effectively monitor baggage screening
      operations.

      OIG Analysis: TSA’s planned actions address the recommendation. It will
      remain open and unresolved until TSA provides the Integrated Project Team
      charter and related reporting requirements and metrics.




www.oig.dhs.gov                         19                               OIG-12-128
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


Appendix A
Objectives, Scope, and Methodology
The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the Department.

The objective of our audit was to determine whether TSA ensured TSOs were complying
with baggage screening procedures at HNL. We conducted this audit in response to a
request by two members of Congress: Representative John Mica, Chairman of the
Committee on Transportation and Infrastructure; and Representative Jason Chaffetz,
Chairman of the Subcommittee on National Security, Homeland Defense, and Foreign
Operations, Committee on Oversight and Government Reform. The Representatives
questioned why a portion of the TSA screener workforce at HNL failed in their
performance of critical transportation security screening responsibilities.

To answer our objective and respond to the Congressmen, we interviewed officials and
personnel from the following offices at TSA headquarters:

           Office of Security Operations;

           Office of Security Capabilities;

           Office of Inspection;

           Office of Human Capital;

           Office of Professional Responsibility; and 

           Office of Training and Workforce Engagement.


We interviewed HNL airport operator staff, TSA officials, TSMs, and all levels of TSOs.
We attempted to meet with all 48 individuals involved in the security system failure,
including those suspended and terminated. Only 23 of the 48 individuals were available
or willing to meet. The 48 individuals included 3 members of the FSD’s staff, 2 TSMs,
4 Supervisory TSOs, 6 Lead TSOs, and 33 TSOs. The 23 individuals we met with included
1 member of the FSD’s staff, 1 TSM, 2 Supervisory TSOs, 1 Lead TSO, and 18 TSOs.




www.oig.dhs.gov                           2�                                  OIG-12-128
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security

We reviewed TSA’s Report of Investigation and related personnel actions. We reviewed
video evidence included in the investigation files and made direct observations of the
screening location. We analyzed SOPs for checked baggage and screening management
issued between April 2009 and March 2011.

We reviewed TSA documentation for staffing allocations and checked baggage
throughput, requests for additional staffing and equipment, and costs associated with
the use of the National Deployment Force.

Using IDEA software, we randomly selected a statistically valid sample of 194 out of 680
TSOs at HNL and reviewed their training files for October 2009 through March 2011. 3
We reviewed TSA’s National Training Plan for TSOs, Lead TSOs, and Supervisory TSOs
from the timeframe under review and selected three training courses per quarter to
review. We also reviewed three one-time training courses that were relevant to the
checked baggage security incident at HNL. We reviewed a total of 21 training courses.
(See appendix D.)

We used the same statistically valid sample size to review TSO performance evaluation
files from fiscal year (FY) 2009 through FY 2011. We reviewed disciplinary files for
January 2009 through September 2011. We looked at these files to determine whether
TSOs met performance criteria and whether they had disciplinary action taken
associated with checked baggage screening. (See appendix E.)

In addition to the statistically valid sample, we reviewed the performance evaluations,
disciplinary files, and training files for the 43 TSOs involved in the security system failure
as identified by TSA’s Office of Professional Responsibility.

We conducted this performance audit between August 2011 and February 2012
pursuant to the Inspector General Act of 1978, as amended, and according to generally
accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based upon our audit objectives. We believe that




3
 Given a population of 680 TSOs, a 90 percent confidence interval, 5 percent sampling error, and 50
percent population proportion, the statistically valid sample size is 194 TSOs.

    www.oig.dhs.gov                                21                                       OIG-12-128
                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security

the evidence obtained provides a reasonable basis for our findings and conclusions
based upon our audit objectives.




www.oig.dhs.gov                           22                                OIG-12-128
                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security


Appendix B
Management Comments to the Draft Report

                                                                                    us. Ikpoo.r 'ru.m' or Hun,".,," Scw,-J.y
                                                                                    601 South I:tb Stn:~t
                                                                                    A 'lm~"m .   V.,   10:)~~


                                                                                    Transportation
                                                                                    Security
                                                                                    AdIninistration


               AtE 31 2IIIZ

                                                    INFORMATION


         MF.MOR AN Ol JM FOR:           Anne L. Richards
                                        Assistant Inspector General/or Audits
                                        U.S. Department of Homeland Security (DHS)

         FROM:                          J uhn S. P is tol\:: ~ f. ..
                                        Admi ni s1rator

         SUBJECT:                       TSA Management and O\'cn;ight (Jl Honolulu international
                                        Airport - Se n~itive Seo;;udty h(forma/iotl
                                        orG Project No. ll -1 40-AUD·TSA




         Thi !> memorandum constitutes t he Transportation Secur ity Administratio n ' s (T SA) response to
         the DI-IS Oflicc of the Inspector General (O IG) draft report entitled, TSA Management and
         Oversight at Honolulu Inlernaliomll Airporl - Sensitive Sc(."ur ity Information, O IG Proj Cl:t No.
         11 -140-AUD-TSA.

         Rack ground

         As DHS OIG describes i n Ihe report. TSA primarily uses either Explosives Detection Systems
         (EDS) or Explosives T race Detection (ETO) to screen cheeked baggage. EDS screening requires
         T ransportation Sel:urity Officers (TSOs) to place c hecked baggage in a machine that uses x-ray
         to screen for explosives and o t her p rohibited items. Em screening requires TSOs to manuall y
         swab pi:UIs o f lhe bags. am.! a nal y£c lIu::: swabs fo r lrm;1:: a m uu nts of I::xrlusivcs n:::siuuc.

         Prior to January :Wl 0, "SA's Chec ked Baggage Screen in Standard U cratin' P rocedures SOP)
         for ETD re uired that             f checked bags receive

         (4 A OI2   protoco).




www.oig.dhs.gov                                                  23                                                            OIG-12-128
                                OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security



                                                                                                              2



         In

                            I     I
         screen bEl s in Lobby 4. Consequentl y, TSOs at Lobby 4 were required to
        ":::::;.::::::;:~ unless they transported the bags 10 another lobby area w ithin the
         equipped with EDS techno logy.

         In Decemher 20 10 , a L:OnfiUen li<:l1 source ntlLifit.:d T SA nfficials thai Sllme J-fN L TSO s wert!
         clearing checked baggage for transport on a commercial passenger aircraft without cond'ucl:in,g
         the required screening. TSA' s invest igation into the allegation revealed that
         several months many employees working at HNL Lobby 4 failed to follow
         for ETO screening of checked baggage. More than 40 TSOs. Lead TSOs (L'
         Supervisory TSOs (STSO) submitted sworn statements to TSA investigators that, taken together,
         described widespread and frequent failures by TSA employees working the morni ng sh ift in
         Lobby 4 to follow the screening protoco l. HN L officers admitted to TSA investigators that the
         SOP viol ations induded marking checked hags as "clear" and sendin g them ontn aimlanes
         without any screenin Th~ officers also admitted 10 conducting onIY.....______--'
         instead of the                               mandated by the SOP.

         TSA ultimately took disc iplinary action against more thun 40 I-fNL officers for failing to conduct
         required screening, and again st two T ransportation Security Managers (TSM) and three members
         of the Federal Security Director's (FSD) staff for careless or negligent perfonnance of their
         duties. Disciplinary action ranged from 14-day suspension to removal from the Agency.

         In June 2011, Congressman John Mica and Congressman Jason ChafTetz requested that DHS
         Q1G conduct a review to detennine why a portion ofTSA 's HN L screening workforce failed to
         perform critical transportat ion securi ty screening. The Congressmen asked for "a complete
         analysis of the failure ofTSA ' s oversight and supen:ision of baggage and passenger screening
         operations, protocols, and procedures at HNL."

         DHS O IG conducted its review and analysis between August 2011 and February 2012, and has
         provided TSA with its dmft re pan, TSA Ma nagement and Oversight nl f/rm n/u/u rnrernational
         Airport (D IG Proj ect No. 11- t40-A UD-TSA). Overall, DH S O IG concluded that the
         responsibility for performing required security duties rests with indi vidual em ployees, but that
         Agency factors also contri buted to the security fa ilure at HNL. The contributory fac tors
         identified by OHS OIG in volved the oversight ofTSOs, the train ing of"STSOs, the development
         and management o f changes to screening procedures, stafting of the security screening
         workforce. and the de ployment of security tec hnology hardware.

         Discussiun

         TSA concurs with OHS OIG's recommendations to improve TSA·s manage.ment and oversight
         of its security screening operati ons. As d iscussed furthc:r below. TSA has already begun
         implementing some o f DHS O IG' s recommendations. While TSA agrees wi th DHS OrG's




www.oig.dhs.gov                                           24                                                 OIG-12-128
                                OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security



                                                                                                              3

         recommendations for improving rraining, management, oversig ht , and the process for testing and
         evaluating SOP changes. we have several concerns with DJ-IS OIO's co ncl usions in the draft
         report .

         TSA disagrees with DHS O IG 's claim that the screeni ng violations at HNL Lobby 4 morning
         shift might not have occurred if TSA developed changes in screening procedures more
         comprehensively and fu lly evaluated the effects of such changes. The manner in which the SOPs
         were developed had noth ing to do with the HNL officer's failure to properl y fo llow the SOP.
         TSA 's investig.at ion revea led Ihm Checked Baggage Screening SO P vinlatinns hecame a lmust
         normal practice in HNL Lobby 4, and at times some HN L officers were not screening any bags
         at all . The willful nature of the officers ' violations and the lack of suffi cientl y diligent
         management oversight. does not support the conclusion that the situation at HNL Lobby 4 could
         have been prevented by (l more streamlined, better documented, process tor evaluating SO P
         changes.

         TSA provided documentation to DHS O IG that demonstrated TSA 's complex and
         comprehensive data co llection and analysis effort cond ucted over a ptoriod of severa l years at a
         number of diffe rent airports prior to implementing the _        protocol. TSA agrees that
         improvements may be made in this area and has agreed to implement DHS OIG's
         recommendation. I Jowever. TSA does not agree that any perceived shortcom ings in the process
         for evaluating changes to TSA ' s screening procedures caused the officers to make the decision
         not to l:llmpl y with TSA'~ SO P. As DHS OIG notes in the dran repllrt, TSA's in vestiga tion
         reverucd that from September to December 2010, violations of the Checked Baggage SCfl-'Cning
         SOP had become almost normal practice at HN L Lobby 4. IfTSA's process for implementing
         SOP changes was a fa ctor in the ongoing screening failures. it would be expected that such
         ongoing failures would have been seen at other aillJorts and that did not occur. lfthere were
         identifiable problems with implementing Ihe screening protocols at HNL Lobby 4 as the result of
         its configuration those proble ms should have been ra ised up through the chain of superv isi on for
         remediation.

         TSA also disagrees with DHS OIG 's conclusion that the avail ability of checked ba gage
         mitigation procedures cou ld have eas ily led some TSOs to believe that screenin               ' of
         checked baggage was not always poss ible or necessary . Mi tigation procedures are peffilitted to
         account for unpred ictab le and unique circumstances where adhering to the standard protocols
         could result in additional security and safety issues. TSA has longstanding limits and tight
         controls fo r check.ed baggage mitigation and TSOs arc aware that such actions may only bc used
         in limited situations under specific circumstances, The DHS O IG draft
         evidence 10 support the claim that the exij.\lm!'!i.cll!lii1i!,~iQ(L~~""'!ill~.flI.'-!!d
         "may have led some TSOs to believe                                                            not
         always possible, and that it was

         TSA first established a process for all owi ng alternative or mitigation procedures for checked
         baggage screening in 2005 to address special circumstances, such as unexpected c hecked
         baggage volume. T SA 's SOP clearly provides that mitigation procedures can only be used under
         " specitic. shun-term , spec ial circumstances" not as a mailer or routine screen ing ope:rations.




www.oig.dhs.gov                                           2�                                                  OIG-12-128
                               OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security



                                                                                                              4


         Mitigation proct:dur~s may only he authorizt!u by an FSD or their designee. and cannot be
         approved by anyone below the position of Assistant FSD tor Screening (AFSD-S). ,'\ Iso,
         mitigation procedures are on ly used in 15-minute intervals, and each use must be documented
         and reported to TSA I Icadquarters.

         DHS 010 nut on ly failed lo o ITer evidentiary support for its c[)ncius ion about the impact or
         checked baggage mitigation procedures, they ignored the most cred ible evidence in TSA' s
         investigation. TSA ' s investigation contained sworn statements of more than 40 TSOs, LTSOs,
         and Supervi sory TSOs who admitted to knowingly violat ing TSA' s screening procedures and
         clearly demonstrates that there was no ambiguity about the screening requirements at HNL
         Lobby 4.

         Concl usion:

         TSA appreciates the opportunity to provide feedback to lJHS O l G on its draft findings and
         recommendations.

         DHS OIG provided fo ur recommendations for TSA and our comments follow each
         recommendation:

         Rt=cummendaiion #1: Crt:'ale and document protoculs tu e ns ure tha t suflident inform<Jliofl is
         gathered and used fo r thorough analysis when decid ing to modify standard operating proced ures.
         These protocols should be w~H documented and ensure com prehensive, transparent, and logical
         approaches with detailed support, while al lowing flex ibility to address urgent threats.

         TSA concur... TSA agrees t hat it shou ld improve its process for developing, evaluating, and
         documenting changes to its screening procedures. TSA also apprec iates that DHS OIG
         recognizes that this process should remain fle xible to allow the agency to address urgent threats
         and vulnerabil ities. TSA anticipates implementing thi s flew process by June 30, 2013.

         Recommendation #2: Revise the position descriptions to clari fy the roles and responsibilities
         for checked baggage supervisors and managers and defi ne the expectations for direct
         supervision. This should ensure that assigned staff are per forming screening duties in
         accon.lwH.;e wi th all stam.larrl opemting, proct=dun:=:s.

         TSA concurs. TSA has already taken steps to implement this recommendation. As pan o f a
         comprehensive job analysis study, TSA recently conducted a thorough review of job duties.
         responsibilities, and competencies for STSOs, LTSOs, and TSOs. The results of this study are
         sl:heouleo to be released by September 30, 2012. TSA anti cipates updati ng the posi ti on
         descriptions of these positions, while clearly deli neating the role and oversight responsibility of
         STSOs, including checked baggage STSOs. The revised positio n descr iptions are expected to be
         completed by December 31. 2012 .




www.oig.dhs.gov                                          26                                                OIG-12-128
                                   OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security



                                                                                                                 5

         In addition, TSA pl ans to review the position descriptions for TSM , Deputy AFSD, AFSDs,
         AFSD·S. Ar:SD-MS. DFSO and foSD in 2013 to ensure that supervisory responsibilities arc
         c learly articulated. This update should be completed by August 31,20 13.

         Recommendation #3: Ensure that supervisors and managers are trained on their responsibil ity
         and accountability to ensure that a ll screen in g operations are performed as required.

         TSA concur.). TSA has already taken steps to implement this recommendation. In October
         2011 , TSA implemented a new c()mpeTency requirement for all screen ing employee performance
         plnns. titled "Applicat ion of Standard Operating Procedures. " This competency is defined as an
         employee's ability to retain and implement knowledge ofa l! applicable SOPs related to their
         position and requires that STSOs hold themselves and their subordi nates accountable for
         acquiring, demonstrating, maintaining, implementing, and applying proper screening-related
         knowledge and skill s; including the appropriate use ofreehnology and other tonl s to perfoml
         rout ine nnd non-routine assignments in accordance w ith SOPs, directives, and other polic ies.

         In July 20 12, TSA launched a new training course titled 'Essential s of Supervising Sc reening
         Operations' . This 2-week course is specifically designed to help STSOs establish a true
         leadership presence at the checkpoint and checked bag gage screening locations by providing
         them the tools they need to understand their leadership strengths, as we ll as how to use their
         strengths to effecti vely eva luate TSO on-the-j ob performance and take correcti,,'e action s as
         nccdell, to include coaching and mentoring. This l:ourse also provides STSOs wilh LCl:hnical
         training to review Dnd support thc security screening measures they arc responsi ble. for carrying
         out, as well as administrati ve training so they have an opportuni ty to review the roles and
         responsibili ties for themselves and their officers and identi fy areas where improvements can be
         made. The goal afthi s training is to establ ish a cadre afSTSOs that take responsibil ity tor the
         critical role they have in the successful accomplishment of TSAs mi ssion. The training
         addresses integrity, responsibility. core values as well as TSA 's mission and vision, so they are
         all operating from the same basic platform. This training is required far all current and newly
         se lt:cted STSOs. T SA expects that by February 2014 all 4,400 STSOs will have attended this
         tmining.

         TSA will be build ing its training pOl1folio to support the expansion of courses that include
         simi larl y tailored training for TSM s and other levels of TSA 's field leadership tearn, while also
         continuing 1[1 build a cmnprehcnsive tra ining portfolio for the STSO and LTSO l:adres. The
         specific project plans have not yet been de'vcloped tor these additional courses; however, project
         plans wi ll be developed some lime in FY 2013 .

         H.l!commendaCion 1#4: Develop and implement performance metric s to evaluate the supervision
         of checked baggage areas as part of supervi sory performance plans and evaluations. These
         metries sllould include frequent direct observation of baggage screen ing activi ties.

         TSA conurs. TSA has a lready taken steps to implement th is recommendation. TSA chartered
         an Integrated Project Team to identify specific metrics that will allow TSA managers across the
         nation   10   mo re t!ffectively moni tor checked baggage sl:reening operations. STSOs will be




www.oig.dhs.gov                                             27                                                OIG-12-128
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security



                                                                                                           6

         required to personally observe, collect, and repon specified data to senior m anagement. Senior
         management will be better infonned about the need to follow up and evaluate the act ions of a
         supervisor or a work unit, in response to an y nmed anomalies. TSA anti cipates that thi s data and
         the associated reporting requirements and metTies for checked baggage scree ning will be
         established at fed eralized airpOIts across the Nation by July 31, 20 13.




www.oig.dhs.gov                                          28                                                OIG-12-128
                                   OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security


Appendix C
Representatives Mica and Chaffetz Request Letter


                                                ~ngrrs'li             01   t1Jt ~l1lrtb §)tattll
                                                             IiIwt,. gton, bt. 20515




                                                                           J:une21,2;(1l1




                OlurLCil K... Ed\ollwd8
                AcUng In:!Ip«:UM' Otoer.t..l
                U ,S.   ~~f'I        or ~ 1(lml: l;K;Id 5ccuri1)'
                24$ MWI'O' I)rhoe, S W
                I~      41 0 I ~&llsrop 2600
                W;uf)m gklO, DC 2OS2!J




                          We, BIoo.e. wltb OW" w llcecuc:!l in ConCfCS8, cootinuc to be ~mo."" ;111 tbc
                T rJ.l1spal"W.l ofL S«:\ul11 A dm.lnUllJUllono8 (rsA) 1l'lliUlagnne:nl and o~llh t oribl fl$l~ral
                                                                                                                     ..
                K~f\CI' (I~ i (lM. 1'he reccut pl"(l p(l~ f'Ti ~                ,.ra
                                                                              ~iaui6C1:f1 t TlllJnber           or
                                                                                                      TS/... cmpll))'<le!I,.
                illCludina. membcmi of(be TSA's (I'A"JI koiiI;h:.UibijJ I~ 111 H~uJl,l lntc:m n tioonl Airpor1 OINL)
                hl&hli&ht the confJlct dIm cxl w: ....b;m TSA lICU IW b(JI:lt the opo..'IUUJt' 8ftd ftIgl.II iI r uribe avutioon.
                $C~n.i118 ~~. [\ is iatpe'n11 Ii ... e 1M Pede rlll .g~ nc.}' ~!olllms:ible fila ll101inl uin.i'l1B .VPU.oIll
                SC(:"';ty opcrntc:s in ... cff~ ~h'>e And dJ"lICil;nt !J1nOi~ r,

                        Wr! ~qut!5t } 't.JI.U I;tfllce conduct II tompl iSl:! in~~jJYll:ion aorI tOOf'tWli!,ll n:-ncwo(wny n
                signilk:ant ponio!} ofdac TSA ge1CeIlc r ....'Ori.:furee ot I'" T .. d~lically failed iIl lhei.t
                pt.:tf~ .;.f critical ~1l0fl iteCtl~y k rtcntr18 n:~llilbtic$. Spt~ficlll l )". 'I',l;! III"Cl
                imc~slcd in Ihc iolkl""'i!)l infunDllooo:


                         A complete aD81 ~ or !.he failure ofTSA'. ovcr.dgltt and                     !iIiI~'I!l lotl   or bsggage: aoo
                          p :lJllkI~r scn..~IUl g cipi!tatJuat..    l lI'I)1l!O.'Jl!I lind prOCctl'ures a tl lNL.




                         A rcvit::W ofHNL T lW18pOrUi(ioo Sec.urily Office", (fSO) pcrlormlUll:C illdicarom.. pul
                         evfiJUlldoM. and all perfomlilDoe re lato:J d l~l pl lnltl")' llCliom,

                         An eJellmullil.iLm ur ....1u::tlll::r d ie ;~tiu l &..d J"OeUrn:nl rr.:.inilJ8 n::qu~ L'I tor T'SOs!lf
                         I IN'L ~~ C1l1'l'1:lJIlUld ~nt .".i th ll&1i(lRaJ lr.J.'inin& roqui rcm~IJI"




  www.oig.dhs.gov                                                            29                                                           OIG-12-128
                                     OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security




       Mr Cbldcs 'K . Edw.d,
       '!PI21. 2011
       .... -r-




              A rnicw of the TSA 'I pmcCttKS to re mo\'e non- or underpe:rforminc TS(Y. in Ct'nCllW,
              and ... ttNL iII~_

              A ~view()rtht.: TSI\·. p l_Io.a:af'l' I"IN L ik:n:x:nin¥opm1IltIDQII until pcn:nIllQlITSO
              tq)iKcmmu c.w\ be bircd _net _ned. IIOd if the TSA pllIm 10 dc9lo)' t he NIIlic:lMl
              DepIoYft*lI F«ee.. an Mldit of 0,. 4OUI. 008$ or   " .eh. dq:IloyllK.'tIIt.

                  We RlCfUC31 )'Q\l~~. tbon;IIu&11 irJ~ipXiQn with. rqJCIrt of)'OW fiDditlp.,d
       t\XUmrl'lCndMioat. Adchtiuo.llly.....-e ~uo:fl. complete bricfinc b)' )'OU IUJd TOW aaIJ' rep dine

       I.Crawu    1ft.
       )'OUr in'l"'C:I11ption.. I-.-e CQ:II..IIC1 Scaa McM n. with the ConurIiUClo 011 Tn.mpgrladon_
                            lOZ-lU-1!I048 IiOd )fivoJtclJ Komin*y "",bh tho ~ on ~&bt wxI
       OoYanmcal Rd'Otlll fi t 202-225-501. .....i1h aft)' quH1lOa8.

                                              s·   ~I y,




                                                                  Jason Ow:trCIZ
                                                                  o..;~
                         incc on TIWJ!lfXln.-ioD                     bri:lomminec on NlitionnJ Sco.Irky.
                   1t. 1~                                            Homdalld tk.R"ftSIII: and Fon:l n
                                                                    O~ORII
                                                                  Commi ll_on~                a
                                                                     Govc:n llnCftl Rcfufnl




www.oig.dhs.gov                                                   3�                                        OIG-12-128
                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


Appendix D
Review of Training
The initial and recurrent training requirements for TSOs at HNL were current and
consistent with TSA national training requirements. However, some TSOs did not meet
all annual training requirements in FY 2010 and the first two quarters of FY 2011. The
HNL Training Manager explained that some TSOs were not given enough time to
complete required training, while others were not effectively using their time in the
training labs.

The Basic TSO Training Program requires all TSO candidates to complete a minimum of
40 hours of classroom training and 60 hours of on-the-job training. HNL follows TSA’s
New Hire Training Program, which requires new TSOs to complete seven Web-based
training modules followed by 47 hours of classroom training and 65 hours of on-the-job
training for checkpoint certification. New TSOs have to complete the Checked Baggage
training section, which requires 16 hours of classroom training and 30 hours of on–the­
job training, to receive certification for checked baggage. Of the 194 TSOs in our
sample, 10 were new and subject to initial training during our scope-of-training review.
All 10 TSOs completed the basic training requirements.

All TSOs are required to take prescribed annual training courses to maintain proficiency
with skills learned during basic training and to remain current with procedural changes,
as well as new threat items. Recurrent training must be conducted in accordance with
the National Training Plan. We selected the most relevant 21 courses to review during
FY 2010 and the first two quarters of FY 2011. We randomly selected a statistically valid
sample of 194 TSOs at HNL and those 43 TSOs who were involved in the security system
failure4 who are required to complete recurrent training requirements. The review of
the statistical sample revealed the following completion rates:

                65 TSOs (33.5 percent) completed all 21 courses.
                91 TSOs (46.9 percent) completed 18 to 20 courses.
                19 TSOs (9.8 percent) completed 15 to 17 courses.
                13 TSOs (6.7 percent) completed 10 to 14 courses.
                Five TSOs (2.6 percent) completed one to nine courses.
                One TSO (0.5 percent) did not complete a training course.



4
    Fifteen of the 43 TSOs were also included as part of the statistically valid sample of 194 TSOs.

      www.oig.dhs.gov                                    31                                     OIG-12-128
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security

Our review of the 43 TSOs involved in the security system failure revealed the following
results:

           22 TSOs (51.16 percent) completed all 21 courses.

           15 TSOs (34.88 percent) completed 18 to 20 courses.

           Six TSOs (13.95 percent) completed 15 to 17 courses.





www.oig.dhs.gov                            32                                 OIG-12-128
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


Appendix E
Review of Performance Indicators and Disciplinary Actions
TSA has issued guidance for measuring performance and removing non- or
underperforming TSOs. Each fiscal year, TSA’s Office of Human Capital develops
performance criteria requiring TSOs to complete assessments to maintain certifications
and screening functions, as well as measures for on-the-job performance. Additionally,
TSA has issued guidance for progressive disciplinary actions that can be taken against an
employee in response to unacceptable performance or conduct. We reviewed the
performance indicators used to evaluate TSOs for the previous 3 fiscal years and the
disciplinary actions issued at HNL.

Performance Indicators and Evaluations

PASS is a pay-for-performance management system serving many purposes for TSA
employees, one of which is to measure and evaluate TSOs and TSMs. TSA measures
TSOs and TSMs annually on items such as technical proficiencies, mandatory training,
readiness for duty, and competencies (such as critical thinking, customer service, and
decisionmaking). TSMs and Supervisory TSOs are responsible for rating, reviewing, and
approving a TSO’s evaluation.

Technical proficiency: Assesses TSOs’ ability to perform their screening function. It
assesses their ability to master screening equipment and procedures. The TSO’s
screening function and certification determine the assessments required for the fiscal
year. For each required technical proficiency assessment, TSOs must satisfy the
requirements and pass with three possible attempts. After each failed attempt, the TSO
is removed from the screening function and receives training and coaching before
another assessment is administered. The TSO is either retained and trained, or removed
from employment.

We reviewed the technical proficiencies for the 43 TSOs involved in the security system
failure, as well as a statistically significant sample for FYs 2009–2011. Our review
indicated that 100 percent of both the 43 TSOs and the sample passed the technical
competency on ETD of checked baggage in FY 2009, FY 2010, and FY 2011.




www.oig.dhs.gov                            33                                 OIG-12-128
                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security



Mandatory training: Measures completion of required training items. This component
was removed from performance evaluations in FY 2011 because TSA determined that it
was not a performance component but merely a compliance with the National Training
Plan. TSA put the responsibility on FSDs to monitor this requirement in a different
format. In FY 2009, 99.74 percent of the TSOs in our statistical sample and 99.86
percent of the TSOs involved in the security system failure completed the mandatory
training. In FY 2010, 98.43 percent of the TSOs in our statistical sample and 99.45
percent of the TSOs involved in the security system failure completed the mandatory
training.

Readiness for duty component: Measures a TSO’s and TSM’s dependability and
professional presence. Specifically, this component measures items such as whether
supervisors, managers, or rating officials have received corrective or progressive
disciplinary action throughout the fiscal year for unscheduled leave, or uniform and
appearance.

Competencies: Measures an employee’s behavior and performance standards that are
the most critical to job performance. For TSMs and Supervisory TSOs, it includes
supervisory accountability and management proficiencies. Table 2 displays the
competencies on which the TSOs and TSMs are rated.




www.oig.dhs.gov                           34                                OIG-12-128
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security



                                  Table 2: Competencies for Screening Workforce
                         Competency          TSO    Lead      Supervisory         TSM
                                                     TSO          TSO
                   Critical Thinking          �       �            �              �
                   Customer
                   Service/Interpersonal      �       �            �              �
                   Skills
                   Decisionmaking             �       �            �              �
                   Oral Communication         �       �            �              �
                   Coaching and
                                                      �            �              �
                   Mentoring
                   Conflict Management                             �              �
                   Promoting a
                   Performance-Based                               �              �
                   Culture at TSA
                   Readiness for Duty                              �              �
                   Team Building                                   �
                   Training and
                                                                   �              �
                   Development
                   Critical Incident and
                   Management                                                     �
                   Reporting
                   Program and Policy
                   Compliance and                                                 �
                   Accountability
                   SOP Compliance                                                 �
                   Staffing and
                                                                                  �
                   Operational Needs
                  Source: DHS-OIG.




www.oig.dhs.gov                                  3�                                     OIG-12-128
                             OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security

Competencies are evaluations that place employees into one of four different groups,
with group 0 as the lowest and group 3 as the highest rating. Our review of the
competencies indicated that a majority of the employees sampled were placed in the
highest group. Interviews with TSMs and Supervisory TSOs at HNL showed that TSA
does not have a consistent process for assigning these scores, and the score is subject to
the perspective of the rating official. (See table 3.)


                        Table 3: FY 2009 Through FY 2011 Competency Ratings for the
                                        Statistical Sample of 194 TSOs
                                                    FY 2009           FY 2010         FY 2011
              Rating                             0–2          3     0–2       3     0–2          3
              Critical Thinking                  N/A       N/A     18%      82%     14%     86%
              Customer
                                                 21%      79%      16%      84%     15%     85%
              Service/Interpersonal Skills
              Decisionmaking                     23%      77%      17%      83%     13%     87%
              Oral Communication                 23%      77%      13%      87%     13%     87%
              Coaching and Mentoring             N/A       N/A     15%      85%      6%     94%

              Conflict Management                18%      82%       9%      91%     20%     80%

              Promoting a Performance-
                                                 27%      73%       9%      91%     N/A     N/A
              Based Culture at TSA
              Readiness for Duty                  0%      100%      9%      91%     N/A     N/A
              Team Building                       0%      100%      0%     100%      7%     93%

              Training and Development            0%      100%      9%      91%     N/A     N/A
              Source:
              Note: Several competency factors changed between FY 2009 and FY 2011.
              Factors not assessed during a fiscal year are designated N/A, or not applicable.




www.oig.dhs.gov                                  36                                        OIG-12-128
                                   OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security

We selected a statistically valid sample of 194 TSOs and reviewed their group number
on their performance evaluations for FYs 2009–2011. (See table 3.) In addition, we
selected the 43 TSOs involved in the security system failure and reviewed their group
numbers on their performance evaluations for the same fiscal years.5 (See table 4.)

                           Table 4: FY 2009 Through FY 2011 Competency Ratings for the
                                      43 TSOs Involved in the Security Failure
                                                      FY 2009          FY 2010           FY 2011
               Rating                              0–2          3    0–2       3     0–2        3
               Critical Thinking                   N/A      N/A       2%     98%      0%      100%
               Customer Service/Interpersonal
                                                   14%      86%       0%    100%     11%      89%
               Skills
               Decisionmaking                      12%      88%       2%     98%      0%      100%
               Oral Communication                  17%      83%       0%    100%      0%      100%
               Coaching and Mentoring              N/A      N/A       0%    100%      0%      100%
               Conflict Management                  0%      100%      0%    100%      0%      100%
               Promoting a Performance-Based
                                                    0%      100%      0%    100%     N/A      N/A
               Culture at TSA
               Readiness for Duty                   0%      100%      0%    100%     N/A      N/A
               Team Building                        0%      100%      0%    100%      0%      100%

               Training and Development             0%      100%      0%    100%     N/A      N/A
              Source�
              Note: Several competency factors changes between FY 2009 and FY 2011. Factors not
              assessed during a fiscal year or with no sampled employees rated are designated N/A, or not
              applicable.




5
 Seventeen, 18, and 5 TSOs for FYs 2009 through 2011, respectively, were also included as part of the
statistically valid sample of 194 TSOs.

    www.oig.dhs.gov                                37                                       OIG-12-128
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security

Disciplinary Actions

Several different actions—corrective, disciplinary, and adverse—can be taken to address
unacceptable performance and conduct by a TSO.

   �	 Corrective actions: Administrative and nondisciplinary actions that inform an
      employee about unacceptable performance or conduct that should be corrected
      or improved. Examples of corrective actions include Letters of Counseling,
      Letters of Guidance and Direction, or Letters of Leave Restriction.

   �	 Disciplinary actions: Actions taken against an employee for failing to perform
      duties acceptably, interfering with others’ performance, or exhibiting conduct
      that adversely affects the agency’s ability to accomplish its mission. Examples of
      disciplinary actions include Letters of Reprimand and suspensions of 14 days or
      less.

   �	 Adverse actions: The most severe actions, including suspensions of more than
      14 days, involuntary demotion, or removal.

All actions are initiated, completed, and filed by TSA airport management staff, including
the Supervisory TSO, TSM, Assistant FSD, and FSD. The Supervisory TSO issues
corrective actions and Letters of Reprimand, and can propose suspensions, while all
other issuances must be at the TSM level or higher. The classification of a disciplinary
and adverse action is determined by multiple factors. Factors include the nature and
seriousness of the offense; whether the offense was intentional, technical, or
inadvertent; employee’s job level; record of past disciplinary and adverse actions; length
of service; performance on the job; and consistency of the penalty with other similarly
imposed offenses.

HNL issued 116 disciplinary and adverse actions between January 2009 and September
2011. We reviewed disciplinary and adverse actions taken against TSOs selected in our
random statistical sample of TSOs at HNL.

Our review showed that TSA issued 16 actions from January 2009 through September
2011. (See table 5.)



www.oig.dhs.gov                            38	                                OIG-12-128

                                 OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security



                    Table 5: Summary of Types of Disciplinary and Adverse Actions Taken
               Action Taken                               2009      2010      2011    Total
               Last Chance Agreement                        0         0         1       1
               Letter of Reprimand                          3         1         4       8
               Three-Day Suspension                         0         1         1       2
               Seven-Day Suspension                         1         1         2       4
               Fourteen-Day Suspension                      0         1         0       1
               Total                                        4         4         8       16
             Source:                d


In addition to our statistically valid sample, we reviewed actions for those TSOs involved
in the security system failure.6 Our review showed that TSO issued 10 actions from
January 2009 through September 2011. (See table 6.)

                    Table 6: Summary of Types of Disciplinary and Adverse Actions Taken
                  Action Taken                            2009      2010       2011     Total
                  Last Chance Agreement                     0         0          0        0
                  Letter of Reprimand                       5         3          0        8
                  Three-Day Suspension                      0         1          0        1
                  Seven-Day Suspension                      0         1          0        1
                  Fourteen-Day Suspension                   0         0          0        0
                  Total                                     5         5          0       10
                Source:                  d


Disciplinary and adverse actions were issued to TSOs for failing to
       of an oversized item using ETD protocol, improperly escorting emergency
personnel through a checkpoint, and multiple violations of leave restrictions. We also
reviewed the corrective actions taken for a statistical sample of the TSOs employed at
HNL for calendar years 2009 to September 2011 and those TSOs involved in the security
system failure and not in the statistical sample. Instances for which a corrective action
was issued included failing to mark checked bags as clear, allowing an airline porter to
take unscreened bags, and leaving luggage in an EDS machine overnight.




6
    Fourteen of the 43 TSOs were also included as a part of the statistically valid sample of 194 TSOs.


    www.oig.dhs.gov                                    39                                        OIG-12-128
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


Appendix F
Staff Involved in Security Failure

                               Pay       Salary      Salary
   No.         Position                                         Personnel Action
                              Band      Minimum     Maximum
                                                                Removal/Pending
    1            FSD           SES                                  Appeal
            Assistant FSD
    2         Screening         K       $89,338      $138,479      Retirement
           Deputy Assistant                                     Removal/Pending
    3       FSD Screening       J       $74,732      $115,833        Appeal
                                                                Removal/Pending
    4           TSM             I       $61,256      $94,999         Appeal
                                                                Removal/Pending
    5           TSM             H       $50,273      $71,091         Appeal
    6      Supervisory TSO      G       $41,216      $63,860       Resignation
    7      Supervisory TSO      G       $41,216      $63,860        Removal
    8      Supervisory TSO      G       $41,216      $63,860    30-day suspension
    9      Supervisory TSO      G       $41,216      $63,860    21-day suspension
  10-14       Lead TSO          F       $35,214      $52,877        Removal
   15         Lead TSO          F       $35,214      $52,877    21-day suspension
   16           TSO             E       $30,685      $46,084       Retirement
  17-33         TSO             E       $30,685      $46,084        Removal
   34           TSO             E       $30,685      $46,084         Cleared
  35-42         TSO             E       $30,685      $46,084    30-day suspension
  43-44         TSO             E       $30,685      $46,084    21-day suspension
   45           TSO             E       $30,685      $46,084    14-day suspension
  46-48         TSO             D       $26,722      $40,084        Removal




  www.oig.dhs.gov                          40                          OIG-12-128
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


Appendix G
HNL Airport Configuration




Source: HNL W b


The security system failure at HNL occurred in the screening area identified as Lobby 4,
or the Overseas Terminal. The diagram below shows a closer look at the security set up
of this area at the time of the security failure.




Source:




 www.oig.dhs.gov                           41                                 OIG-12-128
                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


Appendix H
Types of Checked Baggage Screening Searches
Checked Baggage Screening SOP, Revision 4, April 2009

                                   TSOs must sample and analyze the




                                         TSOs must                           inspect
                                                         TSOs must sample and analyze
                                                                 making no more than
             before analyzing the sampling media.

                                     In addition to the steps performed in the
                  TSOs must sample and analyze all items in the baggage that are the
size of a                        or larger and conduct a physical search of any bag, box,
or other container discovered inside the checked baggage that is the size of a
              or larger.

Checked Baggage Screening SOP, Revision 5, January 2010

                                          TSOs must perform a
inspection of all items the size of a                      or larger. TSOs must also
sample the                               as well as taking          of the        of

or larger and the 


Checked Baggage Screening SOP, Revision 5, Change 2, March 2010 


                                        TSOs must perform a brief       inspection of
the bag and its contents. TSOs must also sample the          of the bag         as well
as taking           of the
                                         or larger and the

   www.oig.dhs.gov                           42                             OIG-12-128

                       OFFICE OF INSPECTOR GENERAL
                          Department of Homeland Security


Appendix I
Major Contributors to This Report
Patrick O’Malley, Director
Christine Haynes, Audit Manager
Kevin King, Auditor-In-Charge
Gwendolyn Priestman, Program Analyst
Enrique Leal, Auditor
Elizabeth Clark, Program Analyst
Maureen Duddy, Independent Referencer
Kevin Dolloson, Communications Analyst




  www.oig.dhs.gov                        43                 OIG-12-128
                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


Appendix J
Report Distribution
Department of Homeland Security

Secretary
Deputy Secretary
Chief of Staff
Deputy Chief of Staff
General Counsel
Executive Secretary
Director, GAO/OIG Liaison Office
Assistant Secretary for Office of Policy
Assistant Secretary for Office of Public Affairs
Assistant Secretary for Office of Legislative Affairs
Acting Chief Privacy Officer

Office of Management and Budget

Chief, Homeland Security Branch
DHS OIG Budget Examiner

Transportation Security Administration

Administrator
Assistant Administrator, Office of Security Operations
Transportation Security Administration Audit Liaison

Congress

Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                               44                        OIG-12-128
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
